JUNE 13, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




COMMERCIAL CARGO: NASA’S MANAGEMENT OF
 COMMERCIAL ORBITAL TRANSPORTATION SERVICES
   AND ISS COMMERCIAL RESUPPLY CONTRACTS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-016 (ASSIGNMENT NO. A-12-024-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ATV          Automated Transfer Vehicle
CDR          Critical Design Review
COTS         Commercial Orbital Transportation Services
CRS          Commercial Resupply Services
FAR          Federal Acquisition Regulation
FY           Fiscal Year
GAO          Government Accountability Office
GPS          Global Positioning System
HTV          H-II Transfer Vehicle
ISS          International Space Station
LIDAR        Light Detection and Ranging
OIG          Office of Inspector General
PDR          Preliminary Design Review


                                                          REPORT NO. IG-13-016
JUNE 13, 2013




                                                                                         OVERVIEW

         COMMERCIAL CARGO: NASA’S MANAGEMENT OF
      COMMERCIAL ORBITAL TRANSPORTATION SERVICES AND ISS
               COMMERCIAL RESUPPLY CONTRACTS
                                                                                           The Issue

  In anticipation of the Space Shuttle’s retirement, the NASA Authorization Act of 2005
  directed NASA to develop cargo transportation capabilities to the International Space
  Station (ISS or Station) by fostering the commercial spaceflight industry. Reliable cargo
  transportation capabilities to the ISS are essential to ensure that critical life-sustaining
  supplies are provided to support the Station’s crews and to maximize utilization of the
  ISS as a research lab by delivering and returning experiment-related materials to Earth.
  In the absence of commercial capabilities, NASA would need to rely on the spacecraft of
  international partners from Europe and Japan to resupply the ISS.

  NASA’s goals for its commercial cargo effort are to:

            implement U.S. Space Exploration policy with an investment to stimulate
             commercial enterprises in space;

            facilitate U.S. private industry demonstration of space cargo transportation
             capabilities with the goal of achieving reliable, cost effective access to low Earth
             orbit; and

            create a market environment in which commercial space transportation services
             are available to Government and private sector customers.

   Given that the ISS is scheduled to be decommissioned in 2020, if NASA expects
   commercial partners to play a significant role in servicing the ISS, timely and successful
   development of their transportation capabilities is crucial.1

  To foster commercial cargo capabilities and procure ISS resupply missions, NASA used
  a combination of Space Act Agreements as part of its Commercial Orbital Transportation
  Services (COTS) Program and fixed-price contracts structured in accordance with the
  Federal Acquisition Regulation (FAR) as part of its Commercial Resupply Services




  1
      By law, the ISS must be maintained until at least 2020; however, NASA is examining and Congress is
      considering the feasibility of extending the Station’s life.



REPORT NO. IG-13-016
                                                                                                          OVERVIEW



     (CRS) Contract.2 For the COTS Program, NASA collaborated with and provided funding
     to two private companies – Space Exploration Technologies Corporation (SpaceX) and
     Orbital Sciences Corporation (Orbital) – to further the companies’ development of
     spaceflight cargo capabilities.3 SpaceX and Orbital have shared costs with NASA by
     contributing more than 50 percent of the funds needed for spacecraft development.

     In 2008, NASA awarded $3.5 billion in fixed-price contracts to SpaceX ($1.6 billion for
     12 missions) and Orbital ($1.9 billion for 8 missions) to procure resupply services to the
     ISS.4 In October 2012 and March 2013, SpaceX successfully completed two resupply
     missions. Orbital plans to undertake its first resupply mission in late 2013. NASA
     officials stress that the success of both SpaceX and Orbital is critical to the sustainability
     and utilization of the ISS.

     NASA’s commercial cargo program is at a critical stage with Orbital poised to come
     online later this year and the scheduled decommissioning of the ISS in 2020 rapidly
     approaching. Meanwhile, NASA is using a similar acquisition strategy – a combination
     of Space Act Agreements and FAR-based, fixed-price contracts – to pursue commercial
     transportation services to the ISS for its astronauts.5 To this end, the successes and
     challenges experienced by NASA’s commercial cargo program will prove to be
     instructive to its commercial crew effort.

     Given the importance of the commercial cargo program to the continued viability of the
     ISS, we examined NASA’s management of the program. Details of the audit’s scope and
     methodology are in Appendix A.

     Results

     Following a nearly 3-year delay early in development, SpaceX successfully completed its
     final system demonstration flight and two resupply missions to the ISS. Although each
     flight experienced some anomalies, none were serious enough to substantially impact the
     missions. During the final demonstration flight, SpaceX needed to adjust its Dragon
     capsule’s guidance system, causing a short delay in the capsule’s final approach to the
     ISS. During its first cargo mission, SpaceX encountered a failure on one of the nine

     2
         Space Act Agreements are a form of “Other Transaction Authority” provided in the National Aeronautics
         and Space Act of 1958 (as amended) that allows NASA to establish a set of legally enforceable
         commitments between the Agency and a partner per NASA Policy Directive 1050.1I, "Authority to Enter
         Into Space Act Agreements," December 23, 2008.
     3
         SpaceX’s transportation system includes a rocket booster system (Falcon 9) and capsule (Dragon), while
         Orbital’s system includes a rocket booster (Antares) and capsule (Cygnus).
     4
         NASA has issued task orders and work plans under the FAR-based contracts that outline schedules,
         payment information, and milestones for the 20 resupply missions. To date, NASA has given SpaceX
         authority and partial funding to proceed with 7 missions and Orbital authority and partial funding for
         6 missions.
     5
         The Office of Inspector General is also conducting an audit of NASA’s Commercial Crew Program and
         will issue a report later this year.



ii                                                                                         REPORT NO. IG-13-016
OVERVIEW



  Merlin engines in its Falcon 9 rocket, several hardware failures caused by radiation
  exposure, three instances of sensors losing functionality in the Dragon’s thrusters, and the
  loss of all three coolant pumps due to a water leak after splashdown in the ocean. All
  radiation effects were resolved with no mission impact, the faulty temperature sensors
  represented a loss of redundancy only, and the failure of the coolant pumps did not affect
  the science experiments on board in the return payload. However, these issues
  contributed to a 2-month delay of the launch of the second cargo mission, which was
  moved from January to March 2013.

  During the second cargo mission, a malfunction initially limited the operation of three of
  the four thruster pods used to boost the Dragon to a higher orbit and perform the final
  maneuvers necessary to rendezvous with the ISS. The problem was corrected and the
  Dragon berthed with the ISS one day later than scheduled with no operational impact to
  the mission. As of the end of fiscal year (FY) 2012, NASA had paid SpaceX
  $858 million for development and cargo resupply services under both its funded Space
  Act Agreement and FAR-based contract.

  Like SpaceX, Orbital has experienced delays of over 2 years in its COTS Program,
  including an early change from an unpressurized to pressurized capsule and construction
  delays on its Wallops Island, Virginia, launch facility. NASA has paid Orbital a total of
  $910 million as of the end of FY 2012, including funding for both development efforts
  under its COTS Space Act Agreement and CRS contract. Under the current payment
  schedule, the company is on track to receive up to 70 percent of the funds associated with
  six of its eight CRS missions prior to having flown a demonstration flight.6

  Orbital successfully completed a maiden test flight of its Antares rocket on
  April 21, 2013, but the full demonstration flight required under the COTS Program most
  recently scheduled for June 2013 has slipped to August or September 2013. NASA and
  Orbital officials noted the maiden flight has reduced technical risk and that the costs of
  any system modifications needed as a result of the demonstration flight will be borne by
  Orbital given that the CRS contract is fixed price. Nevertheless, the possibility remains
  that the demonstration flight could expose issues that require costly rework and redesign,
  resulting in major adjustments to the current CRS launch schedule.

  Out of a need to ensure a redundant cargo capacity, NASA funded development of SpaceX’s
  and Orbital’s spaceflight capabilities under the COTS Program while concurrently funding
  fabrication of the companies’ spacecraft under the CRS contracts. As a general matter,
  procuring rocket systems prior to a successful system demonstration flight substantially
  increases financial risk as major technical problems may be encountered during final testing
  and demonstration. Although CRS activities are not contractually tied to a successful
  demonstration flight, as Orbital’s COTS development activities slipped so did the
  anticipated launch dates for its CRS missions. Although we do not second guess NASA’s
  decision to concurrently fund up to three rocket systems given the critical need for
  6
      As of May 2013, Orbital officials stated they had received 70 percent of payments for Missions 1
      through 3, 50 percent for Mission 4, and 40 percent for Mission 5.



REPORT NO. IG-13-016                                                                                     iii
                                                                                                         OVERVIEW



     additional ISS resupply capabilities, in the case of Orbital, NASA will fully or partially fund
     six rocket systems under the CRS contract before Orbital has fully demonstrated its
     spaceflight system.7

     In our judgment, NASA has been too slow to adjust its payment schedule to Orbital under
     the CRS contract given the substantial slippage in the launch schedule for the company’s
     resupply missions. As such, given the risks inherent in concurrent development, we
     question NASA’s decision to pay Orbital approximately $150 million for costs associated
     with their fourth and fifth resupply missions. We believe NASA should have deferred this
     amount to future fiscal years in order to avoid spending funds too far in advance of each
     mission’s launch dates. During the course of our review, NASA took steps to adjust its
     payment schedule in light of the development delays by negotiating a contract modification
     in December 2012 for Mission 6 that tied payment to a successful Antares maiden test flight.
     In our view, NASA instead should have tied payment for this mission to a successful full
     system demonstration flight. Finally, Orbital requested to begin work on resupply Mission 7
     by May 2013, a request from our perspective that, if approved, would result in an additional
     estimated $70 million in premature payments to the company in FY 2013.8

     We discussed with program officials our concerns about these advance procurements and
     they recognized the need to slow down the pace of NASA’s payment for Orbital’s rocket
     systems production. For example, officials said they tied future Mission 4 and
     5 payments to an adjusted launch schedule and completion of ISS integration activities by
     the company.9 While we appreciate that NASA has taken these steps, we believe the
     Agency has accepted too much financial risk by funding Orbital’s fabrication of rocket
     systems for Missions 4, 5, and 6 so far in advance of the time needed to meet the ISS
     resupply schedule and prior to Orbital completing a successful system demonstration
     flight.

     Management Action

     To reduce the Agency’s financial risk, we recommended that the Associate Administrator
     for Human Exploration and Operations Mission Directorate ensure that contractual
     agreements for the commercial cargo providers are updated to reflect the lead times
     required to meet any revised launch dates. If launch dates slip, NASA should adjust
     contract work plans to ensure that the authorized lead times and NASA payments reflect
     the revised schedules. In response to our draft report, the Associate Administrator
     concurred with our recommendation. We consider the Associate Administrator’s
     7
         As a point of comparison, NASA had funded or partially funded four missions before SpaceX’s first
         demonstration mission and five missions before the second demonstration mission.
     8
         As of June 2013, NASA officials informed us that they have delayed authority to proceed for Mission 7
         due to slippages in the CRS launch schedule.
     9
         Per the CRS contract, ISS integration is “the activities required to ensure that SSP 50808 (ISS
         requirements document) have been met; necessary hardware and software developments to interface with
         the ISS have been completed; and joint on-orbit integrated operations plans have been finalized.” Orbital
         reported completing ISS integration in March 2013.



iv                                                                                         REPORT NO. IG-13-016
OVERVIEW



  proposed actions to be responsive to our recommendation and will close the
  recommendation upon completion and verification of the corrective actions.

  While the Associate Administrator concurred with the recommendation, he disagreed that
  NASA has accepted too much financial risk in the way it has implemented the Orbital
  CRS contract. He stated that NASA determined that the programmatic risks of not
  starting hardware development needed for cargo resupply were substantially greater than
  the financial risks posed to the Agency by doing so. He further stated that NASA uses
  existing payment cap protections and other contractual provisions to reduce financial
  risks and align payments with technical performance.

  We agree that balancing programmatic and financial risk is critical to ensure the success
  of the commercial cargo program. However, as outlined in the report we continue to
  believe that NASA has been too slow to adjust its payment schedule to Orbital given the
  substantial slippage in the launch schedule for the company’s resupply missions.




REPORT NO. IG-13-016                                                                          v
JUNE 13, 2013




                                                           CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 7

  RESULTS
      SpaceX Successfully Completed its Demonstration Flights
      and Two Resupply Missions to the ISS _____________________ 9
      NASA Paid Orbital Significant Funding Under the Resupply
      Contract for Six Missions Even Though the Company Has Yet
      to Complete its First Flight to the ISS _____________________ 15

  APPENDIX A
      Scope and Methodology _______________________________ 27
      Review of Internal Controls _____________________________ 28
      Prior Coverage _______________________________________ 28

  APPENDIX B
      Commercial Partner Table ______________________________ 30

  APPENDIX C
      Management Comments _______________________________ 31

  APPENDIX D
      Report Distribution ___________________________________ 34




REPORT NO. IG-13-016
JUNE 13, 2013




                                                                                   INTRODUCTION


  Background

  In 2004, President George W. Bush announced the Vision for Space Exploration, which,
  among other initiatives, directed NASA to pursue access to the International Space
  Station (ISS) and low Earth orbit for both crew and cargo by means of commercial
  partners. Congress responded by enacting the NASA Authorization Act of 2005, which
  directed the Agency to facilitate agreements with U.S. companies for the research and
  development of commercial spaceflight capabilities. That same year, NASA created the
  Commercial Crew and Cargo Program Office to stimulate efforts within the private sector
  to develop safe, reliable, and cost-effective transportation capabilities.

  Between 2006 and 2012, NASA spent $743 million on commercial cargo development
  efforts through its Commercial Orbital Transportation Services (COTS) Program. In
  addition, since 2009 the Agency has made $1.1 billion in payments in connection with
  two fixed-price contracts for cargo transportation services to and from the ISS through its
  Commercial Resupply Services (CRS) Contract. Two companies – Space Exploration
  Technologies Corporation (SpaceX) and Orbital Sciences Corporation (Orbital) –
  received development funds under the COTS Program and are also executing task orders
  and work plans under the CRS contracts.10

  Space Act Agreements. The National Aeronautics and Space Act of 1958 (as amended)
  gives NASA authority to utilize agreements to work with nongovernment entities other
  than the standard contracts governed by the Federal Acquisition Regulation (FAR). One
  of the most frequently used of these “Other Transaction Authorities” is Space Act
  Agreements, which establish a set of legally enforceable commitments between NASA
  and a partner but do not incorporate an extensive list of requirements routinely found in
  FAR contracts.11 In Space Act Agreements, NASA agrees to provide funding, goods,
  services, facilities, or equipment that the partner uses to accomplish stated objectives. In
  return, the partner may advance technologies that support NASA’s mission, share
  information, or reimburse NASA for the support provided. As of March 2013, NASA
  reported over 1,500 active Space Act Agreements with various private companies,
  educational institutions, state and Federal government organizations, and foreign
  governments and entities.



  10
       As defined in the Federal Acquisition Regulation, a task order is an order for services defined in a
       contract. NASA uses a document called a work plan to describe the ways in which the contractor will
       execute the task order.
  11
       We use the term “partner” to describe the commercial companies that perform work with NASA under a
       Space Act Agreement.



REPORT NO. IG-13-016                                                                                          1
                                                                                                 INTRODUCTION



    The Space Act provides authority for reimbursable, nonreimbursable (unfunded), and
    funded agreements, and NASA has utilized all three types of agreements in its
    commercial cargo development program. In a funded agreement, NASA transfers
    appropriated funds to a partner to accomplish a specific objective. The Agency may use
    funded agreements only if it cannot achieve its objectives through other types of
    instruments, including traditional FAR-based contracts. In nonreimbursable agreements,
    each party bears the cost of its participation with no exchange of funds, while in
    reimbursable agreements a partner reimburses NASA for support provided such as test
    facilities, supplies, or engineering expertise.12

    Commercial Orbital Transportation Services. NASA’s commercial cargo
    development program – known as COTS – aims to stimulate efforts within the private
    sector to develop and demonstrate safe, reliable, and cost-effective cargo transportation
    capabilities to the ISS and low Earth orbit. In 2006, NASA announced it would begin
    this effort by competitively funding multiple Space Act Agreements. That year, NASA
    entered into Space Act Agreements with SpaceX and Rocketplane Kistler for
    $278 million and $207 million, respectively. However, because Rocketplane Kistler
    failed to achieve several financial and technical milestones, NASA terminated its
    Agreement with the company in 2007 after expending $32.1 million. In February 2008,
    NASA recompeted the opportunity and entered into a Space Act Agreement with Orbital
    worth up to $170 million. In fiscal year (FY) 2011, NASA added additional milestones
    to the SpaceX and Orbital Agreements, bringing the total value of the respective
    Agreements to $396 million and $288 million.

    Both SpaceX and Orbital were expected to contribute their own funds to the commercial
    cargo development efforts and to date have contributed more than 50 percent of overall
    development costs. In essence, this means that NASA and the companies share financial,
    schedule, and technical risks associated with the Program. In addition, both agreements
    called for the companies to demonstrate a cargo resupply capability in less than 3 years –
    a substantially shorter timeframe than the average 5 to 6 years NASA officials told us
    such efforts typically take to complete.

    As a part of the Space Act Agreement negotiations, NASA and the companies agreed to a
    series of developmental milestones that tied payments to events such as design reviews,
    testing, and ultimately full system demonstration flights. Once NASA and the company
    agree that a particular milestone has been accomplished, NASA pays the company a
    predetermined amount associated with that milestone.

    A key milestone in the Space Act Agreements for both companies is a full system
    demonstration flight, which includes successful launch and rendezvous with the ISS. For
    SpaceX, the full system demonstration flight also included successful delivery of cargo to
    and the return of cargo from the ISS.13 Initially, SpaceX proposed to conduct three
    12
         NASA Policy Directive 1050.1I, “Authority to Enter into Space Act Agreements,” December 23, 2008.
    13
         SpaceX’s Dragon capsule returns to Earth, while Orbital’s Cygnus capsule will burn up upon reentry and
         therefore can only be used to dispose of unneeded materials from the ISS.



2                                                                                       REPORT NO. IG-13-016
INTRODUCTION



  demonstration flights of its rocket systems under the COTS Agreement. Ultimately,
  SpaceX self-funded the maiden flight of its Falcon 9-Dragon transportation system. That
  mission was followed by two demonstration missions under the COTS Agreement, one of
  which included berthing with the ISS. Given the success of these demonstration flights,
  NASA determined that SpaceX had met or exceeded all of the technical objectives in the
  COTS Agreement and thus did not require the company to perform a third demonstration
  mission.

  Orbital’s Space Act Agreement includes a single system demonstration flight currently
  planned for August or September 2013. In 2011, NASA added a milestone to the
  Agreement linked to a maiden test flight of Orbital’s Antares rocket. Orbital successfully
  completed this test flight on April 21, 2013.

  Commercial Resupply Services Contracts. In December 2008, while SpaceX’s and
  Orbital’s development efforts were still underway pursuant to their COTS Space Act
  Agreements, NASA entered into a separate set of FAR-based, firm-fixed-price contracts
  with the companies for a series of resupply missions to the ISS. Worth a total of
  $3.5 billion, these contracts are for 20 cargo resupply missions through at least 2016: 12
  by SpaceX and 8 by Orbital. (See Appendix B for more information concerning the CRS
  contracts.) Under the contracts, NASA and the companies agreed to a price per mission
  for the delivery to and return of cargo and disposable items from the ISS. Because costs
  are expected to rise over the life of the program, annual increases to the price per mission
  are factored into the contracts.

  NASA uses task orders and work plans to manage the CRS contracts. Task orders are
  issued to the companies for specific projects related to a mission. To date, NASA has
  issued 26 task orders: 18 to SpaceX and 8 to Orbital.14 For both companies, Task
  Order 1 describes the basic requirements for the 20 resupply missions. Work plans are
  published for each mission and identify the milestone dates tied to specific payments by
  NASA to the companies. Each work plan is designed to allow sufficient lead time to
  build the vehicle to meet the ISS resupply schedule. Because NASA wanted to start
  resupply missions as soon as possible, NASA initiated its FAR-based resupply contracts
  with the understanding that the companies would receive authority and funds to build
  rocket systems prior to completing their first demonstration flights. Due to the imminent
  need for cargo missions and the lead time necessary to fabricate the systems, NASA
  accepted the risk associated with building vehicles before a successful demonstration
  flight. The partners sought to help mitigate this risk by testing individual systems and
  components prior to the demonstration flight.

  When SpaceX received its CRS contract award in 2008, its COTS efforts had been
  underway for 28 months and the company had completed its system design reviews. In
  contrast, NASA’s Space Act Agreement with Orbital had been in place for just
  10 months and its system designs were still preliminary when Orbital was awarded its
  CRS contract in 2008. Moreover, once the requirements of the CRS contract were
  14
       Examples of task orders include conducting studies and designing new equipment for future missions.



REPORT NO. IG-13-016                                                                                         3
                                                                                                 INTRODUCTION



    finalized, Orbital altered its COTS demonstration mission design for an unpressurized
    capsule to address NASA’s request for a pressurized capsule.15

    The CRS contracts were not directly tied to the milestones outlined in the companies’
    COTS Agreements. Rather, they were tied to a launch schedule that anticipated the
    companies’ development efforts would be completed with full demonstration flights
    approximately 2-3 years later. However, as developmental efforts began to slip and
    completion of COTS milestones was delayed, this assumption turned out to be incorrect.
    Moreover, although NASA has authority under the CRS contract to adjust the payment
    schedule based on revised launch dates, we found this was not routinely done in a timely
    manner.

    SpaceX launches from Cape Canaveral Air Force Station in Florida, adjacent to NASA’s
    Kennedy Space Center. Following a series of delays, SpaceX flew a successful maiden
    flight of its Falcon 9-Dragon system in June 2010, a full system demonstration of its
    launch system in December 2010, a demonstration flight to the ISS in May 2012, and two
    resupply missions to the ISS in October 2012 and March 2013.

    Orbital’s rocket system launches from a newly constructed pad at Wallops Flight Facility
    in Virginia. Orbital conducted a successful hot fire test of its Antares engines in
    February 2013 and a test flight of its Antares rocket in April 2013. A demonstration
    mission of its full system to the ISS is planned for August or September 2013. Orbital’s
    first resupply mission to the ISS is scheduled for the last quarter of calendar year 2013.
    Figure 1 provides a summary of both companies’ spaceflight systems.




    15
         In accordance with its Space Act Agreement, Orbital began building an unpressurized capsule in
         February 2008. In December 2008, Orbital accepted a contract award for the CRS missions with a
         requirement for a pressurized capsule, which necessitated a change in design and delayed development of
         its system. This issue is discussed in more detail in the Results section.



4                                                                                       REPORT NO. IG-13-016
INTRODUCTION



          Figure 1: Commercial Orbital Transportation Services – Orbital and SpaceX




  Source: NASA Office of Inspector General (OIG) presentation of company and Program information.


  ISS Cargo Transportation Providers. In addition to the SpaceX and Orbital vehicles,
  NASA has access to two other vehicles to transport supplies to the ISS: the European
  Space Agency Automated Transfer Vehicle (ATV) and the Japanese Aerospace




REPORT NO. IG-13-016                                                                                5
                                                                                                 INTRODUCTION



    Exploration Agency H-II Transfer Vehicle (HTV).16 The international partners and
    NASA worked together to produce a schedule that meets ISS needs and maximizes each
    vehicle’s capabilities. NASA officials stated that because European cargo missions are
    scheduled to end in mid-2014, these vehicles would not provide sufficient capability to
    meet the Agency’s ISS cargo transportation needs beginning in 2015. In addition,
    Program officials said the last two scheduled HTV flights in 2015 and 2016 are slated to
    carry 24 primary batteries for the ISS, which significantly reduces the available
    pressurized resupply capability of these flights.

    SpaceX is the sole transportation provider capable of returning equipment, supplies, and
    research experiments to Earth, as all the other vehicles (including Orbital’s Cygnus) are
    designed to disintegrate upon reentering the Earth’s atmosphere. Figure 2 provides the
    projected schedule for cargo resupply flights to the ISS through 2016. Missions beyond
    2016 are not yet scheduled.

                            Figure 2: ISS Cargo Mission Schedule as of May 2013




    Source: NASA OIG presentation of Program information.

    NASA barters with the European Space Agency and the Japanese Aerospace Exploration
    Agency for cargo transportation on their vehicles.17 As of January 2013, the Europeans

    16
         The Russian Space Agency (Roscosmos) uses its “Progress” vehicle to resupply its segment of the ISS,
         but the United States does not have a current resupply agreement with Russia.
    17
         Barter agreements involve the exchange of goods or services rather than money. The framework for
         cooperation was established in the January 1998 ISS Intergovernmental Agreement with specific details
         for barter agreements in subsequent Memorandums of Understanding between NASA and partner
         countries.



6                                                                                       REPORT NO. IG-13-016
INTRODUCTION



  have flown three of five planned cargo missions on the current schedule, while the
  Japanese have flown three of seven planned missions.

  The costs per mission for cargo resupply both by SpaceX and by Orbital are expected to
  be lower than the costs associated with the European and Japanese vehicles. Table 1
  compares the average cost per mission and capabilities of all ISS cargo service providers.

            Table 1: Cargo Transportation Average Price per Mission and Capability




  Source: NASA OIG analysis of Program information.

  Objectives

  Given the importance of NASA’s commercial cargo program to support the ISS through
  the remainder of its scheduled lifespan, we assessed the program’s progress to date and
  the Agency’s overall management approach. Specifically, we assessed the extent to
  which the Agency and its commercial partners are on track to resupply the ISS. See
  Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior audit coverage.




REPORT NO. IG-13-016                                                                           7
RESULTS




                                  SPACEX SUCCESSFULLY COMPLETED ITS
                                    DEMONSTRATION FLIGHTS AND TWO
                                       RESUPPLY MISSIONS TO THE ISS

          Following a nearly 3-year delay in development, SpaceX successfully completed its
          final system demonstration flight and two resupply missions to the ISS as of
          April 2013. Although each flight experienced technical anomalies, none were
          serious enough to substantially impact the missions and, according to ISS Program
          officials, were fewer in number and complexity than what program managers
          encountered during other space programs. For example, during the second
          demonstration flight SpaceX needed to adjust Dragon’s guidance system prior to its
          final approach to the ISS. During the company’s first cargo mission, SpaceX
          experienced a failure in one of its nine engines, several hardware failures in the
          Dragon caused by radiation exposure, three instances of sensors losing functionality
          in the Dragon’s thrusters, and the loss of all three coolant pumps due to a water leak
          after splashdown in the ocean. All radiation effects were resolved with no mission
          impact, the faulty temperature sensors represented a loss of redundancy only, and
          failure of the coolant pumps did not lead to loss of science experiments on the return
          payload. However, these issues contributed to a 2-month delay for the second cargo
          mission, which slipped from January to March 2013. During the second cargo
          mission, a malfunction initially limited operation of three of the four thruster pods
          used to boost the Dragon to a higher orbit and perform the final maneuvers necessary
          to rendezvous with the ISS. The problem was quickly corrected, and the Dragon
          berthed with the ISS one day later than scheduled with no operational impact.

SpaceX Successfully Demonstrated its System Albeit Nearly
  3 Years Later than Originally Scheduled

  NASA awarded SpaceX a $278 million Space Act Agreement as part of the COTS
  Program in August 2006, and 2 years later a $1.6 billion firm-fixed-price CRS contract
  for 12 resupply flights to the ISS. In FY 2011, NASA added milestones to the Space Act
  Agreement, bringing its total value to $396 million. With its May 2012 demonstration
  flight, SpaceX satisfied all requirements of the Space Act Agreement and received its
  final milestone payment in August 2012.

  Launch contracts are typically paid in increments tied to the successful completion of
  production milestones. As of the end of FY 2012, NASA had paid SpaceX $462 million
  on its CRS contract (see Table 2). This included full payment for the company’s first ISS
  resupply mission and partial funding for completed milestones associated with the next
  five missions. Work on a seventh mission began in December 2012.




REPORT NO. IG-13-016                                                                           9
                                                                                                        RESULTS



                          Table 2: Summary of COTS and CRS Funding for SpaceX




     Source: NASA OIG analysis of Program information.

     Originally, SpaceX was scheduled to conduct three demonstration missions under its
     Space Act Agreement, with the final mission scheduled for September 2009.18 However,
     technical issues – including those related to design and software development – caused
     SpaceX to delay its first COTS demonstration flight until December 2010. Given the
     success of this flight and the second COTS demonstration, NASA did not require a third
     COTS demonstration, thereby finalizing the company’s obligations under its COTS
     Agreement. The delay in the final demonstration mission shifted the schedule for the
     company’s first resupply mission from mid-2010 to October 2012 (see Figure 3). The
     company’s second mission successfully launched on March 1, 2013, berthed to the ISS
     with the assistance of the Station’s robotic arm, and returned to Earth on March 26, 2013. 	




     18
          Under the original Space Act Agreement, the final SpaceX COTS demonstration was the only flight that
          included an actual berthing with the ISS.



10                                                                                      REPORT NO. IG-13-016
RESULTS



                    Figure 3: Key Milestones and Test Event Delays for SpaceX




  Source: NASA OIG analysis of Program information.

COTS Demonstration Flight Was Successful

                             SpaceX’s May 2012 flight successfully demonstrated the
                             company’s ability to launch the Dragon capsule (see Figure
                             4) and to approach and berth with the ISS. During the
                             flight, SpaceX experienced a minor technical issue with the
                             Dragon’s Light Detection and Ranging (LIDAR) guidance
                             system used in conjunction with a thermal imaging sensor
                             to guide the capsule toward the ISS. As the Dragon
                             capsule made its way to the ISS, SpaceX halted its
                             progress due to unanticipated LIDAR reflections from the
                             ISS structure that were removed by reducing the field of
                             view of the sensor. This action allowed the Dragon
                             capsule to properly analyze the distance from the ISS,
                             safely approach the Station, and attach to a docking port
                             with the help of the Station’s robotic grappling arm. The
  LIDAR guidance system functioned correctly during SpaceX’s October 2012 resupply
  flight.

 Technical Issues During SpaceX Mission 1

  In October 2012, SpaceX launched CRS Mission 1, the first of its 12 cargo resupply
  flights to the ISS. Mission 1 carried approximately 450 kilograms of supplies, including



REPORT NO. IG-13-016                                                                         11
                                                                                                             RESULTS



     166 scientific investigations.19 In addition, the mission carried a secondary payload – a
     communications satellite for the company ORBCOMM. As is common, the flight
     experienced several minor technical issues, none of which affected the success of the
     NASA cargo mission.

     First Stage Engine Failure. SpaceX’s Falcon 9 first stage is powered by nine Merlin
     engines. Approximately 79 seconds into launch, Falcon 9 experienced a failure in one
     engine, which automatically shut down. The Falcon 9 is designed to operate in the event
     of the failure of one engine, and the Dragon capsule remained on course to its rendezvous
     with the ISS. However, the engine failure resulted in the loss of the prototype
     ORBCOMM communications satellite, which deployed at a lower than expected altitude
     and was unable to reach its operational orbit.20 SpaceX subsequently conducted an
     investigation and NASA received a report on the failure in February 2013.

     For the second CRS mission, SpaceX used engines that had been thoroughly inspected to
     preclude recurrence of the problem. Moreover, SpaceX officials stated that the upgraded
     engine that will be used in future flights does not use the same production process.

     Flight Computer Malfunction and Radiation Events. In order to decrease computing
     power, facilitate ability to upgrade, and increase processor speed, SpaceX decided not to
     use radiation-hardened parts, and instead chose to address radiation effects through a
     radiation-tolerant avionics system and design recovery strategies if a failure were to
     occur.21 For example, to compensate for the danger of a radiation-induced malfunction,
     SpaceX uses three redundant computers to ensure that one or more remain operational.

     Following its successful berthing to the ISS in October 2012, the Dragon experienced a
     number of radiation-related malfunctions. First, following a wave of solar radiation, one
     of the capsule’s three computers desynchronized from the other two. After the
     malfunctioning computer successfully rebooted, SpaceX technicians decided not to
     resynchronize it with the other computers operating the capsule. Because the capsule was
     able to operate at full capability with only two computers – the minimum required by
     NASA – Agency officials said that re-synchronizing the failed computer was not worth
     the risk, and the mission proceeded using the two computer systems. NASA and SpaceX
     subsequently developed contingency plans to address this situation were it to occur on


     19
          While the Dragon can carry 3,310 kilograms of pressurized up mass, the amount of mass carried is
          dependent on the cargo’s density given the available volume. Furthermore, previous resupply missions
          by international partners had reduced the amount of cargo that SpaceX needed to deliver to the ISS on
          this first mission. The higher priority need for this mission was to return cargo back to Earth.
     20
          A planned second burn of the Falcon 9 second stage was cancelled by NASA in order to meet ISS safety
          requirements. This burn would have been needed to place the satellite into the correct orbit. While the
          second stage had sufficient propellant for the second burn, the amount available was just below the level
          NASA required to meet its acceptable risk criteria.
     21
          Hardening against the effects of radiation involves using special radiation-resistant materials when
          fabricating computer processors and components, and then insulating and shielding the systems from the
          effects of radiation.



12                                                                                          REPORT NO. IG-13-016
RESULTS



  SpaceX Missions 2 or 3. The Dragon capsule that SpaceX is preparing for Mission 4 will
  be able to resynchronize its computers without rebooting.

  In addition to the malfunction of the flight computer, radiation also caused the temporary
  loss of one of three Global Positioning System (GPS) sensors, the propulsion and trunk
  computers, and an ethernet switch. Once the Dragon reached orbit and prior to berthing
                                              with the ISS, the GPS sensor suffered a
                                              radiation hit and lost power. However,
                                              technicians were able to quickly restore power
                                              and restart the sensor. While berthed to the
                                              ISS, the propulsion and trunk computers as
                                              well as an ethernet switch lost power due to
                                              radiation exposure. Both systems fully
                                              recovered following a restart.

                                             Capsule Thruster Sensor Malfunctions. The
                                             Dragon capsule uses thrusters to control
                                             attitude and maneuvering capabilities once it
                                             has entered low Earth orbit. During CRS
                                             Mission 1, sensors on two thrusters
  malfunctioned. On Thruster 3, a sensor reading drifted for a short period. SpaceX
  technicians monitored the thruster for the remainder of the flight and did not report any
  additional or undesired drift. On Thruster 4, a temperature sensor reading also had a
  similar error.

  NASA officials said that each of the sensors had backups, which alleviated any
  maneuvering issues. In addition, the malfunctioning sensors did not fall below NASA-
  required performance thresholds, allowing the thrusters to continue normal operations.

  Electrical Power Lost After Splashdown. The Dragon capsule returned from CRS
  Mission 1 on October 28, 2012, with 393 kilograms of scientific experiments and
  235 kilograms of hardware. After splashdown in the Pacific Ocean (see Figure 5) and
  before the Dragon capsule could be lifted onto the recovery ship, water leaked into
  external portions of the capsule, which prompted SpaceX officials to turn off electrical
  power to several components, avoiding potential damage. As a result, three coolant
  pumps that maintain temperatures inside the cabin were shut off, although temperatures
  remained within required limits. In addition, electrical power to the General Laboratory
  Active Cryogenic ISS Experiment Refrigerator (GLACIER) refrigeration system was
  turned off. The refrigerator was storing temperature-sensitive samples from
  investigations conducted on the ISS. Although temperatures inside the refrigerator rose
  30 degrees from the desired temperature of minus 95 degrees Celsius, none of the
  materials stored inside this device were damaged.

  NASA officials explained that the water seepage was caused by the loss of air pressure in
  portions of the capsule during deorbit, creating a vacuum at splashdown. The capsule
  used during the company’s May 2012 demonstration flight also experienced seepage after


REPORT NO. IG-13-016                                                                           13
                                                                                          RESULTS



     splashdown and SpaceX began to take steps to address the problem following that flight.
     However, by the time of the demonstration flight, the vehicles for use in CRS Missions 1
     and 2 were nearly complete and little could be done to modify them. Accordingly,
     SpaceX modified the storage containers for the second flight in an attempt to increase
     their resistance to water seepage. SpaceX has since modified the design of the capsule
     for the third mission to guard against water intrusion.

     As a result of the technical issues experienced on CRS Mission 1, SpaceX and NASA
     rescheduled the second resupply mission from January to March 2013. None of these
     issues turned out to be major problems, and NASA officials did not consider the 2-month
     delay substantial or indicative of future negative performance issues.


Technical Issue Briefly Delayed Berthing with ISS During SpaceX
  Mission 2

     On March 1, 2013, SpaceX launched the second of its 12 CRS missions to the ISS with
     677 kilograms of supplies, including 160 scientific experiments. At approximately
     9 minutes into launch, a minor issue occurred with the Dragon capsule’s oxidizer tank
     pressure. This malfunction limited the operation of three of the four thruster pods used to
     boost the capsule to a higher orbit and perform the final maneuvers necessary to
     rendezvous with the ISS. SpaceX delayed deployment of the Dragon’s solar array for
     90 minutes until technicians determined that deployment would not exacerbate the
     thruster problem.

     NASA has a firm requirement that at least three thruster pods be operational before the
     Dragon can approach the ISS. Accordingly, SpaceX delayed further ascent until it
     corrected the thruster problem. Approximately 5 hours after launch, SpaceX engineers
     corrected the issue with the oxidizer tanks and their associated plumbing, thereby
     returning all four thruster pods to normal operation. The Dragon recomputed its ascent
     and rendezvous profiles and resumed its approach to the ISS.

     The Dragon successfully berthed to the ISS on March 3 – one day later than scheduled.
     This delay did not adversely affect any experiments aboard the Dragon capsule. The
     capsule remained at the ISS until March 26, when it returned to Earth with
     1,370 kilograms of science samples.




14                                                                          REPORT NO. IG-13-016
RESULTS




                                            NASA PAID ORBITAL SIGNIFICANT
                                               FUNDING UNDER THE RESUPPLY
                                           CONTRACT FOR SIX MISSIONS EVEN
                                           THOUGH THE COMPANY HAS YET TO
                                        COMPLETE ITS FIRST FLIGHT TO THE ISS

             Like SpaceX, Orbital has experienced delays in its COTS development program,
             including postponement of critical system reviews and flight tests. Despite these
             delays, NASA has paid Orbital a total of $910 million as of the end of FY 2012,
             including funding for both COTS development efforts and cargo resupply services
             under its CRS contract. As of May 2013, the company is on track to receive up to
             70 percent of the funds associated with six of its eight CRS resupply missions prior
             to having flown a demonstration flight.22 Given the risks inherent in concurrent
             development and production, we question NASA’s decision to pay Orbital
             approximately $150 million for costs associated with Orbital’s fourth and fifth
             resupply missions and believe NASA paid these funds too far in advance of the
             missions’ launch dates. These actions increased NASA’s financial risk in the event
             that the system demonstration flight reveals the need for design changes and
             modifications to Orbital’s rocket system. Moreover, in December 2012 NASA gave
             Orbital authority to proceed on Mission 6 with payments contingent upon a
             successful maiden test flight of the company’s Antares rocket. In our view, NASA
             instead should have made payment for this mission contingent upon a successful full
             system demonstration flight. Finally, as part of their Launch on Need proposal,
             Orbital requested to begin work on resupply Mission 7 by May 2013, a request that if
             approved would result in an additional estimated $70 million in payments for a
             mission that is not scheduled to launch until 2016.23 During the course of this audit,
             Orbital successfully completed its Antares maiden test flight, which company
             officials state reduces the risk that the demonstration flight will reveal major
             technical issues.

Orbital Successfully Completed its Antares Maiden Flight but Has
  Yet to Demonstrate a Flight to the ISS

  Orbital’s Antares-Cygnus rocket system is the most complex and technically challenging
  rocket system the company has attempted. Antares is both the largest rocket the



  22
       Orbital officials stated that as of May 2013 the company has received 70 percent of the payments
       associated with Missions 1 through 3, 50 percent for Mission 4, and 40 percent for Mission 5.
  23
       Launch on Need capability means that the contractor has a “rolling spare” vehicle readily available in the
       event NASA needs a launch earlier than is planned in the current launch schedule. As of June 2013,
       NASA officials informed us that they have delayed the Authority to Proceed for Mission 7 due to
       slippages in the CRS launch schedule.



REPORT NO. IG-13-016                                                                                                15
                                                                                                                RESULTS



     company has built and its first powered by first-stage liquid-fueled engines.24 In
     addition, Orbital officials told us that two-thirds of the company’s launch system is
     composed of significantly modified heritage subsystems or new subsystems, which in
     their view reduces technical risk. However, we have previously reported that the use of
     heritage technologies often requires significant modification before they are suitable for
     integration into new products.

     Under the original terms of its Space Act Agreement, Orbital had planned its key
     milestone – a system demonstration mission to the ISS – for December 2010. Once it
     became clear that the company would not meet this timeline, NASA amended the
     Agreement in March 2011 to add a milestone for a maiden test flight of the Antares
     rocket (see Figure 6). Orbital successfully completed this test flight on April 21, 2013.

                           Figure 6: Key Milestones and Test Event Delays for Orbital




     Source: NASA OIG analysis of Program information.




     24
          There are two basic types of rockets: solid propellant fueled and liquid propellant fueled. Liquid-fueled
          rockets are considered more complicated to operate because they require pumps and fuel lines, which
          tend to make them heavier than solid-fueled engines. Although a liquid-fueled rocket has its
          complications, there are also advantages. For example, unlike a solid-fueled rocket, which, once ignited,
          burns until all fuel has been exhausted, a liquid-fueled rocket has valves and pipes that direct (or shut off)
          the fuel, making it easier to control the amount of the thrust.



16                                                                                             REPORT NO. IG-13-016
RESULTS



  Due to technical issues, Orbital’s system demonstration flight has been delayed
  repeatedly and is now scheduled for August or September 2013.25 Orbital’s key
  milestone delays are as follows:

             System Preliminary Design Review (PDR) was delayed 8 months. The PDR is an
              important review to demonstrate that a system’s preliminary design meets all
              requirements with acceptable risk and within cost and schedule constraints. The
              PDR establishes the basis for proceeding with detailed design and demonstrates
              that the correct design option was selected, interfaces have been identified, and
              verification methods have been described. In its Space Act Agreement, Orbital
              agreed to develop an unpressurized cargo module; however, NASA’s CRS
              contract calls for pressurized cargo missions. At Orbital’s request, NASA
              modified the Space Act Agreement to include demonstration of a pressurized
              cargo capability. This major change caused the delay in completing the PDR.

             System Critical Design Review (CDR) was delayed 12 months. The purpose of
              CDR is to demonstrate that the design is sufficiently mature to proceed with full-
              scale fabrication, assembly, integration, and testing. The CDR should indicate
              that the technical effort is on track to meet mission performance requirements
              within the identified cost and schedule constraints. A portion of the delay in
              getting to CDR was caused by the delayed PDR. The rest of the delay was due to
              technical issues associated with hardware and electronic systems for the
              spacecraft. Contrary to industry best practices, Orbital began ordering parts for
              fabrication of its first two launch vehicles before CDR was successfully
              completed. Spacecraft designs are not frozen until CDR and are subject to
              change until that time. Once CDR is completed, all parts specified and designed
              are ordered and fabricated. Due to early fabrication of the first two launch
              vehicles and subsequent requirements changes, Orbital’s first enhanced cargo
              module will not be available until Mission 4.26

             The Hot Fire Test was delayed 15 months. This test was performed on
              February 22, 2013 to demonstrate the readiness of the rocket’s first stage and
              launch pad fueling systems. The test involved firing Antares’ dual AJ26 rocket
              engines – generating a combined total thrust of 680,000 pounds for
              approximately 29 seconds – while the first stage was held down on the pad.
              COTS Program officials told us this delay in testing stemmed primarily from an
              engine failure during prior testing due to a fuel pipe structural failure caused by


  25
       Orbital originally proposed in its COTS agreement to develop, test, and demonstrate the entire system in
       2 years. NASA Program officials told us they knew this was an optimistic and aggressive schedule and
       would likely slip, but they nonetheless approved Orbital to work toward that goal.
  26
       The enhanced cargo module provides the capability to increase delivery of cargo to the ISS from
       1,700 kilograms to 2,700 kilograms. NASA and Orbital originally planned to use an enhanced cargo
       module for Mission 3; however, subsequent changes in requirements associated with the vehicle visiting
       the ISS made it necessary to slip the enhanced capability to Mission 4.



REPORT NO. IG-13-016                                                                                              17
                                                                                                             RESULTS



                 stress corrosion, and improvements to the liquid-fuel-capable launch facility at
                 Wallops that were not completed until September 2012.27

                The Maiden Test Flight of Antares was delayed 18 months. This test flight took
                 place on April 21, 2013, and included a launch of the Antares vehicle carrying a
                 payload simulator in place of the actual Cygnus capsule. The delay for this test
                 flight stems from the Wallops launch pad construction and engine issues
                 mentioned above. After the successful hot fire test, this maiden test flight was
                 Orbital’s second-to-last major milestone under its COTS Agreement. In
                 December 2012, NASA granted Orbital authority to proceed with its sixth launch
                 vehicle with payment contingent on completion of this maiden test flight.
                 Despite the delays, the maiden flight of Antares successfully demonstrated all
                 operational aspects of the new launch site and the new rocket, including the
                 ascent to space and delivery of the Cygnus simulator to a target orbit. According
                 to Orbital officials, this reduced significant technical risk associated with the
                 System Demonstration Flight.

                The System Demonstration Flight has been delayed at least 33 months. Under
                 Orbital’s current plan, the demonstration flight is expected to include: (1) launch
                 of the Cygnus capsule; (2) check-out of Cygnus systems in low Earth orbit;
                 (3) rendezvous, proximity operations, capture, and berth with the ISS; (4) crew
                 entrance and check-out of Cygnus systems while berthed to the ISS; (5) release
                 and departure of Cygnus; and (6) deorbit and re-entry. A large portion of the
                 delay (12 months) can be attributed to the PDR and CDR delays; however,
                 COTS Program officials told us the remaining 21-month delay stemmed
                 primarily from the engine and launch facility issues discussed above combined
                 with systems integration testing that identified issues with individual systems
                 within the Cygnus capsule. In addition, Orbital decided to replace one of the
                 engines on the demonstration launch vehicle due to an internal propellant seal
                 leak observed in prior acceptance testing. Assuming that this flight occurs as
                 planned in August or September 2013, NASA will have paid towards the
                 production of at least six of the eight Orbital vehicles specified in the CRS
                 contract before the company has demonstrated its full flight system.

     Under NASA’s current schedule, Orbital completed its Antares maiden flight test and
     plans to undertake its demonstration flight and first cargo mission to the ISS within
     7 months. In contrast, SpaceX conducted its Falcon 9 maiden test flight more than
     6 months before its first demonstration flight, and an additional 17 months passed
     between the company’s first and second demonstration flights. We acknowledge that
     technical issues and schedule slippage are common in complex development programs;
     however, the 3 months between the launch system’s August/September demonstration
     flight and Orbital’s first resupply mission to the ISS planned for the last quarter of
     calendar year 2013 leaves little time to correct any significant issues discovered during
     27
          The launch facility at Wallops, known as the Mid-Atlantic Regional Spaceport, is overseen by the
          Virginia Commercial Space Flight Authority.



18                                                                                        REPORT NO. IG-13-016
RESULTS



  the demonstration. Even so, Orbital officials stated that a 3-month turnaround time is
  achievable because the company has considerable experience in launching multiple
  missions in a short timeframe and have the space systems readily available.

Continued Funding of Orbital’s CRS Contract Despite Substantial
  Launch Delays Increases NASA’s Financial Risk

  NASA increased its financial risk by funding production of multiple Orbital spaceflight
  systems while Orbital’s development efforts were still under way. According to best
  practices for space system acquisition, production of a flight system should not occur
  until the system has been successfully demonstrated in a relevant environment.28 The
  purpose of these practices is to minimize the concurrency between product development
  and production of a system.29 Previous reviews by the NASA OIG and the Government
  Accountability Office (GAO) have found that committing to production before system
  development is complete is a high-risk strategy that often results in performance
  shortfalls, cost increases, schedule delays, and test problems.30

  We understand that NASA accepted the risks of concurrent development with both
  SpaceX and Orbital out of a need to ensure a redundant cargo capacity to meet the ISS
  resupply schedule, and we do not second guess the Agency’s decision to concurrently
  fund up to three spaceflight systems for each company. However, in the case of Orbital,
  we believe that NASA has leaned too far forward by continuing to fund the company’s
  CRS missions when Orbital did not meet major developmental milestones specified in its
  Space Act Agreement, which in turn delayed launch dates for its CRS resupply missions.

  In the Orbital CRS contract, each cargo mission has 10 milestones, the first 7 of which
  are tied to rocket system fabrication for items such as long lead procurement and
  integration and testing. The final three milestones, representing 30 percent of the
  remaining funds, are dependent on successful launch activities such as cargo integration
  review, launch, and delivery. As a result, NASA is paying Orbital 70 percent of the
  funds associated with the company’s first three CRS missions and 40 to 50 percent of the


  28
       GAO, “Best Practices: Better Management of Technology Development Can Improve Weapon System
       Outcomes” (GAO/NSIAD-99-162, July 30, 1999). Technology readiness level 6 – demonstration of a
       prototype in a relevant environment – is the level of technology maturity that constitutes low risk for
       beginning system fabrication for production models.
  29
       Concurrency is broadly defined as the overlap between technology development and product
       development or between product development and production. While some concurrency is
       understandable, committing to product development before requirements are understood and
       technologies mature or committing to production and fielding before development is complete is a high-
       risk strategy that often results in performance shortfalls, unexpected cost increases, schedule delays, and
       test problems. It can also create pressure to keep producing to avoid work stoppages. GAO, “Missile
       Defense: Opportunity Exists to Strengthen Acquisitions by Reducing Concurrency” (GAO-12-486,
       April 2012).
  30
       GAO, “NASA: Assessments of Selected Large-Scale Projects” (GAO-12-207SP, March 1, 2012) and
       NASA OIG, “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
       September 27, 2012)



REPORT NO. IG-13-016                                                                                                 19
                                                                                                              RESULTS



     funds associated with Missions 4 and 5 – all before Orbital demonstrates that its system
     can successfully launch and rendezvous with the ISS.

     As of the end of FY 2012, NASA paid Orbital $633 million under the CRS contract
     toward activities associated with building five rocket systems, three of which were
     substantially complete by December 2012.31 This funding represents 33 percent of the
     total funding NASA agreed to pay Orbital for its 8 resupply missions. In contrast, NASA
     paid SpaceX approximately $100 million toward three missions under its CRS contract
     prior to the company’s Falcon 9 maiden test flight, and a total of about $300 million prior
     to its successful demonstration flights. Table 3 summarizes the funding Orbital has
     received from NASA.32

                           Table 3: Summary of COTS and CRS Funding for Orbital




                                                                                                                   	
     Source: NASA OIG analysis of Program information.

     We question NASA’s decision to continue funding milestones for up to six Orbital CRS
     missions given the financial risk to the Agency if major modifications are required to the
     company’s launch system after the demonstration flight. Funding so many missions in
     advance of a demonstration flight increases NASA’s financial and programmatic risk.
     Under the original CRS contract, NASA was scheduled to fund work on three missions
     before Orbital completed its demonstration flight. However, even though most key
     development milestones under the Space Act Agreement and therefore the launch dates
     for Orbital’s CRS flights have been delayed, NASA only recently adjusted Orbital’s CRS
     payment schedule to reflect these delays.33

     Moreover, as a result of the schedule delays and its decision not to adjust the payment
     schedule accordingly, NASA has funded all of Orbital’s missions months or even years
     earlier than necessary to fly to the ISS, according to the Agency’s revised flight schedule.

     31
          The payments to Orbital are used for all costs related to the entire program including spacecraft
          hardware, ground systems, and program reviews.
     32
          As a point of comparison, SpaceX began work on flight hardware for its first three missions before its
          Falcon 9 maiden test flight in June 2010. At the same point in its development cycle – prior to its
          April 2013 Antares test flight – Orbital had begun work on six of its eight missions.
     33
          Although there are no contractual ties between the CRS contract and the COTS Space Act Agreements,
          in December 2012 NASA negotiated with Orbital to tie payment for Mission 6 to the completion of the
          Antares maiden test flight.



20                                                                                           REPORT NO. IG-13-016
RESULTS



  Standard lead times for development of similar space systems is 24-30 months, and the
  SpaceX and CRS contracts specify lead times consistent with this standard. However,
  NASA funded and Orbital began fabricating systems for the company’s first six missions
  an average of 41 months before they are now scheduled to fly. Figure 7 summarizes the
  relationship between fabrication and current mission schedules.

                           Figure 7: CRS Funding and Fabrication Schedule




  Source: NASA OIG analysis of Program information.

  In our judgment, funding Missions 1, 2, and 3 was reasonable despite the program delays
  and schedule changes because NASA officials had a need to start CRS missions to the
  ISS immediately following COTS demonstration flights. However, we question NASA’s
  decision to pay Orbital approximately $150 million in FY 2011 through FY 2013 toward
  the systems for Missions 4 and 5, which are not scheduled to fly until FY 2015. At the
  time these funding decisions were made, NASA Program officials were well aware of the
  extent of slippage in both Orbital’s COTS milestones and its CRS launch dates.

  Furthermore, so far in FY 2013, NASA has spent approximately $10 million on
  Mission 4, and we estimate the Agency will spend an additional estimated $70 million on
  Missions 4, 5, and 6 by the end of FY 2013. In addition, Orbital has requested as part of
  their Launch on Need proposal to begin work on Mission 7 in May 2013 and Mission 8 in
  November 2013. We estimate that should NASA ultimately agree to this request it would
  constitute a premature expenditure of an additional estimated $70 million in FY 2013 and
  roughly $60 million in FY 2014, based on NASA’s current ISS flight manifest.




REPORT NO. IG-13-016                                                                          21
                                                                                            RESULTS



     Table 4 summarizes the amounts NASA has paid or is scheduled to pay Orbital per
     mission under the CRS contract. In our judgment, delaying authority to proceed until
     closer to when missions are scheduled to launch would better protect NASA’s financial
     interest against the possibility that Orbital is ultimately unable to successfully
     demonstrate its launch system or the demonstration flight shows that major modifications
     to the system are required.

                       Table 4: Summary of Potential CRS Savings per Fiscal Year




     Source: NASA OIG analysis of Program information.

Balancing and Managing Financial Risk

     NASA officials acknowledged the financial risk associated with funding Orbital’s
     development of spaceflight capabilities while concurrently funding the fabrication of six
     launch vehicles. However, in their view the programmatic risks of not having reliable
     transportation capabilities to service the ISS outweighed the financial risk. To this end,
     NASA program officials said they funded Orbital for six missions because NASA
     required a Launch on Need capability in case cargo resupply missions from either
     SpaceX or the Agency’s international partners became unavailable. In addition, NASA
     Program officials said upgrades to Orbital hardware on Missions 4 through 8 required a
     longer lead time to build.

     NASA officials also explained their rationale for accepting this level of financial risk as a
     way to ensure a second private company was financially “healthy” enough to participate
     in the CRS activities. The officials said that despite the milestone delays under Orbital’s
     Space Act Agreement, they currently see no major technical problems with the
     company’s launch system or capsule. Further, NASA Program officials noted that to
     reduce risk, they have linked 20 percent of the payment for each mission to milestones
     Orbital can meet only by successfully completing deliveries to the ISS. In addition, they
     said they have been holding both SpaceX and Orbital to their original mission pricing as
     a means of holding the contractors accountable for the schedule delays, which helps
     reduce the Government’s financial risk.


22                                                                           REPORT NO. IG-13-016
RESULTS



  According to Orbital officials, the successful Antares maiden flight in April 2013 has
  reduced the risk that the full demonstration flight will reveal major technical issues with
  the company’s system. Given this flight and the completion of ISS integration, which
  took place in March 2013, Orbital officials said they have demonstrated the capability to
  execute ISS resupply missions. In addition, Orbital officials stress that because the CRS
  resupply contract is fixed-price, any technical changes that result in additional costs will
  be borne by Orbital alone. They also point out that in the event the contract needs to be
  terminated for cause, all CRS payments are recoverable.

  Nevertheless, we maintain that by buying services – valued at almost $1 billion – for a
  system that has not been fully demonstrated, NASA has incurred an unnecessary risk. In
  our view, continuing work on Orbital’s fourth and fifth rocket systems and beginning
  work on Missions 6 through 8 in the absence of a successful system demonstration flight
  introduces unnecessary financial risk to NASA, particularly given that the start-work
  dates for these missions are well in advance of the current launch schedule. The current
  manifest indicates that Orbital’s Mission 6 is not scheduled to launch until FY 2015, with
  Missions 7 and 8 not scheduled to launch until at least FY 2016.

  Despite their confidence in Orbital’s system, Program officials acknowledged our
  concern about the level of financial risk NASA was accepting given that the company’s
  system demonstration flight has slipped to August or September 2013. In addition,
  during the course of our audit we discussed with NASA and Orbital officials our
  concerns regarding the Agency’s increased financial risk associated with paying towards
  rocket systems so far in advance of when they are needed to meet the ISS flight manifest.
  NASA officials generally agreed with our assessment, and took action to reduce the
  Agency’s financial risk. For example, NASA officials enforced a section of the CRS
  contract that enables them to hold funding for Missions 4 and 5 at 50 percent as a result
  of launch schedule delays. Furthermore, although NASA granted Orbital authority to
  proceed with Mission 6 in December 2012, payments for the mission were withheld until
  the completion of the Antares maiden test flight.

  While we acknowledge these positive steps toward mitigating NASA’s financial risk, we
  believe that going forward, NASA should ensure that contractual plans and agreements
  are updated to reflect the lead times required to meet revised launch dates. If launch
  dates slip, NASA should adjust the contracts to ensure that the authorized lead times –
  and NASA payments – reflect the revised schedules.

Conclusion

  Since 2006, NASA has worked with its commercial partners to develop commercial
  capabilities to transport cargo to low Earth orbit. In 2008, NASA entered into contracts
  with two companies to utilize those capabilities by delivering cargo to the ISS. To date,
  SpaceX has successfully completed the COTS Program and flown two CRS missions to
  the ISS, while Orbital prepares to demonstrate its complete flight system. While we are
  encouraged by the successful maiden test flight of Orbital’s Antares rocket, we remain


REPORT NO. IG-13-016                                                                             23
                                                                                                            RESULTS



     concerned about the financial risk NASA is taking by funding systems for Orbital
     missions so far in advance of expected launch dates and before the company has
     completed a total spacecraft system demonstration flight to the ISS. With six systems
     either substantially complete or in production, NASA has invested considerable Agency
     resources in Orbital’s current system design prior to a successful demonstration flight.

     Consequently, we question NASA’s decision to continue to fund or begin funding
     Orbital’s fourth, fifth, and sixth resupply missions. While we acknowledge that Orbital’s
     testing to date is meeting expectations, if the system ultimately is unable to successfully
     launch, rendezvous, and berth with the ISS, NASA may not be able to recover the
     approximately $150 million it has invested in these later missions.34 In addition, if
     NASA executes its current FY 2013-2014 spending plan, it will prematurely authorize
     payment of an additional estimated $240 million to Orbital for these missions. We
     believe that this level of risk is unnecessary given that NASA has other options for
     resupplying the ISS, including SpaceX and other international partners.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response

     We recommended that going forward, the NASA Associate Administrator for the Human
     Exploration and Operations Mission Directorate ensure that contractual agreements for
     the commercial cargo providers are updated as appropriate to reflect lead times required
     to meet new launch dates. If launch dates slip, NASA should adjust contract work plans
     to ensure that the authorized lead times – and NASA payments – reflect the revised
     schedules.

             Management’s Response. Although the Associate Administrator disagrees that
             NASA has accepted too much financial risk in the way it has implemented the
             Orbital CRS contract, he nevertheless concurred with our recommendation to ensure
             CRS contracts are updated to reflect the lead times required to meet any revised
             launch dates. He stated that NASA will work closely with CRS contractors to update
             work plans in an iterative process, including reviewing and updating the plans at
             quarterly meetings, and will document the logic behind any decision not to update a
             particular work plan. He noted that the next quarterly meetings are scheduled for
             July for SpaceX and August for Orbital.

             With regard to our finding regarding financial risk, the Associate Administrator
             stated that NASA determined that the programmatic risks of not starting hardware
             development needed for cargo resupply were substantially greater than the financial
             risks posed to the Agency by doing so. He further stated that NASA uses existing

     34
          NASA officials have stated that CRS payments are commercial interim payments that would be fully
          recoverable in the event of termination of the entire contract for cause (per FAR 52.212-4[m]
          “Termination for Cause”). However, our analysis indicates that Orbital will receive additional funds
          associated with the contract before the demonstration flight now scheduled for August or
          September 2013. It may be very difficult to recover these funds in the event of a Termination for Cause.



24                                                                                         REPORT NO. IG-13-016
RESULTS



      payment cap protections and other contractual provisions to reduce financial risks
      and align payments with technical performance.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the corrective actions.

      With regard to the Associate Administrator’s comments regarding our finding of
      financial risk, we agree that balancing programmatic and financial risk is critical to
      ensure the success of the commercial cargo program. However, as outlined in the
      report, we continue to believe that NASA has been too slow to adjust its payment
      schedule to Orbital given the substantial slippage in the launch schedule for the
      company’s resupply missions.




REPORT NO. IG-13-016                                                                           25
                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from July 2012 through April 2013 in accordance with generally
  accepted government auditing standards. Those standards require that we plan and
  perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
  for our findings and conclusions based on our audit objectives. We assessed that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives. This audit focused on the COTS Program managed by NASA’s
  Commercial Spaceflight Development Office, and the CRS contract managed by
  NASA’s International Space Station Program, both within the Human Exploration and
  Operations Mission Directorate.

  To determine the Agency’s management of the COTS Program and CRS contracts,
  progress made, and challenges hindering the successful implementation of the Program
  and contracts, we reviewed laws, regulations, and policies in order to determine
  compliance with required guidance and best practices. We obtained and reviewed prior
  reports related to NASA’s ability to address the development and collaboration
  challenges of the COTS Program. We interviewed key personnel within NASA’s
  Commercial Spaceflight Development Office and the COTS Program located at NASA
  Headquarters, Kennedy Space Center, Johnson Space Center, and commercial partners at
  their corporate sites.

  To determine whether both the commercial partners were on track to provide a system
  capable of resupplying the ISS, we analyzed schedule timelines and partner performance
  under both COTS and CRS to date.

  We reviewed CRS contracts and interviewed key NASA personnel to determine whether
  NASA was properly managing the work plans for CRS. We compared contract payment
  milestones to milestones in the Space Act Agreements and in NASA guidance and
  analyzed the differences.

  To determine whether the Space Act Agreements used in cargo development are readily
  adaptable to other programs such as commercial crew development, we interviewed
  program managers and officials from both the commercial crew and cargo programs,
  along with their supervisors and supporting teams.

  Use of Computer-Processed Data. We used computer-processed data to perform this
  audit. We collected computer-processed milestone payment cost data for the COTS
  Program and the CRS contracts from the beginning of the Program through the end of
  FY 2012. Program officials downloaded the data from NASA’s financial management
  program and provided the data in Microsoft Excel. In order to verify the accuracy of this
  data, we corroborated the information provided with documentation such as the original


REPORT NO. IG-13-016                                                                           27
                                                                                       APPENDIX A



     COTS Space Act Agreements and amendments, the CRS contracts, task orders, work
     plans, and budget data. We analyzed this data to enable us to evaluate partner and
     contractor performance, identify risks to the Program, and quantify NASA’s investment
     to date. We assessed that the cost data we received was sufficiently reliable, but we did
     not rely solely on the computer-processed data to support our findings, conclusions, or
     recommendations.

Review of Internal Controls

     We reviewed NASA policies and procedures to determine internal control requirements
     for management of the COTS Program. The results of this review will be provided in a
     separate memorandum to NASA management.

Prior Coverage

     During the last 5 years, the NASA OIG and the GAO have issued 11 reports or testimony
     of particular relevance to the subject of this report. Unrestricted reports can be accessed
     over the Internet at http://oig.nasa.gov/audits/reports/FY13 and http://www.gao.gov.

     NASA Office of Inspector General

     “NASA’s Challenges to Meeting Cost, Schedule, and Performance Goals” (IG-12-021,
     September 27, 2012)

     “NASA's Challenges Certifying and Acquiring Commercial Crew Transportation
     Services” (IG-11-022, June 30, 2011)

     “Review of NASA’s Acquisition of Commercial Launch Services” (IG-11-012,
     February 17, 2011)

     Government Accountability Office

     “Commercial Space Launches: FAA Should Update How It Assesses Federal Liability
     Risk” (GAO-12-899, July 30, 2012)

     “Commercial Space Transportation: Industry Trends, Government Challenges, and
     International Competitiveness Issues” (GAO-12-836T, June 20, 2012)

     “Missile Defense: Opportunity Exists to Strengthen Acquisitions by Reducing
     Concurrency” (GAO-12-486, April 2012)

     “NASA: Significant Challenges Remain for Access, Use, and Sustainment of the
     International Space Station” (GAO-12-587T, March 28, 2012)

     “NASA: Assessment of Selected Large Scale Projects” (GAO-12-207SP,
     March 1, 2012)


28                                                                          REPORT NO. IG-13-016
APPENDIX A



  “National Aeronautics and Space Administration: Acquisition Approach for Commercial
  Crew Transportation Includes Good Practices, but Faces Significant Challenges”
  (GAO-12-282, December 15, 2011)

  “Key Controls NASA Employs to Guide Use and Management of Funded Space Act
  Agreements are Generally Sufficient, but Some Could Be Strengthened and Clarified”
  (GAO-12-230R, November 17, 2011)

  “NASA: Commercial Partners Are Making Progress, but Face Aggressive Schedules to
  Demonstrate Critical Space Station Cargo Transport Capabilities” (GAO-09-618,
  June 16, 2009)




REPORT NO. IG-13-016                                                                    29
                                                                               APPENDIX B




                                                         COMMERCIAL PARTNER TABLE


                       Table 5: List of COTS Recipients and CRS Awards




     Source: NASA OIG analysis of Program information.




30                                                                    REPORT NO. IG-13-016
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-13-016                         31
              APPENDIX C




32   REPORT NO. IG-13-016
APPENDIX C




REPORT NO. IG-13-016   33
                                                                               APPENDIX D




                                                        REPORT DISTRIBUTION



National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Associate Administrator
     Chief of Staff
     Chief Financial Officer
     Associate Administrator for Human Exploration and Operations
     Director, Commercial Spaceflight Development
     Director, International Space Station Program Office
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Johnson Space Center
     Director, Kennedy Space Center
     Manager, Commercial Orbital Transportation Services

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space



34                                                                    REPORT NO. IG-13-016
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Kevin Fagedes, Project Manager
   Letisha Antone, Auditor
   Cedric Campbell, Associate Counsel to the Inspector General – Central Region
   Michael Palinkas, Management Analyst
   Janice Smith, Auditor
   Troy Zigler, Program Analyst




REPORT NO. IG-13-016                                                              35
                                                                                    JUNE 13, 2013
                                                                   REPORT No. IG-13-016




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
